\*t -

No.
In the Supreme Court of the United States
Emilio Torres Luque,
Gabriela Medina,
Emilio Express Inc.,
Petitioners,
vs.
COMMISIONER OF INTERNAL REVENUE SERVICE,
Respondent.
PROOF OF SERVICE
I, Mauricio Chamat, do swear and declare that on December 15, 2020 as
required by Supreme Court Rule 29 (1), I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or thatparty’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commercial
within 3 calendar days.
The names and addresses of those served are as follows:
i •

vanici -LUJ- UCiiVCXJ

Jeffrey B. Wall, Acting Solicitor General, 950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001
Richard E. Zuckerman, Principal Deputy Attorney General
Joan I. Oppenheimmer, Co-Counsel, Tax Division, Department of Justice
PO Box 502, Washington, D.C. 20044
I declare under penalty of perjury that tjae foregomg'i/true and correct.
Executed on December 15, 2020
Mauricio/Chamat
T33ALa Tempra Corte
Chula Vista, CA 91911
(619) 426-7902

\

